                          U.S. Department of Agriculture

                             Office of Inspector General
                              Financial & IT Operations




               Audit Report

Review of the U.S. Department of Agriculture’s
    Certification and Accreditation Efforts




                                 Report No. 50501-4-FM
                                         October 2005
                         UNITED STATES DEPARTMENT OF AGRICULTURE

                                     OFFICE OF INSPECTOR GENERAL


                                          Washington DC 20250


October 21, 2005



REPLY TO
ATTN OF:       50501-4-FM

TO:            David Combs
               Chief Information Officer
               Office of the Chief Information Officer

THRU:          Sherry Linkins
               Office of the Chief Information Officer
               Information Resources Management

FROM:          Robert W. Young       /s/ Tracy LaPoint (for)
               Assistant Inspector General
                for Audit

SUBJECT:       Review of the U.S. Department of Agriculture’s Certification and Accreditation
               Efforts


This report presents the results of our audit of the Department’s certification and accreditation
efforts.   The report identified weaknesses in the Department’s process, and agency’s
implementation of that process, to ensure that agency systems are accredited appropriately.

Your response to our draft report, dated October 7, 2005, is included in its entirety in exhibit B, with
excerpts incorporated in the Findings and Recommendations section of the report. Based on the
information provided in the response, we have reached management decision for Recommendations
1, 2, 3, 4, 5, 6, and 9. Please follow your internal procedures in forwarding documentation of final
action to the Office of the Chief Financial Officer. For Recommendations 7 and 8, additional
information is needed to reach management decision. Please refer to the OIG Position sections of
the report for specific details.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective actions taken or planned and the timeframes for implementation of the
outstanding recommendations noted above. Please note that the regulation requires management
decision to be reached on all findings and recommendations within a maximum of 6 months from
report issuance.

We appreciate the courtesies and cooperation extended to us during the audit.
Executive Summary
Review of the U.S. Department of Agriculture’s Certification and Accreditation Efforts
(Audit Report No. 50501-4-FM)

Results in Brief     This report presents the results of our audit of the U.S. Department of
                     Agriculture’s (USDA) certification and accreditation (C&A) efforts. Security
                     accreditation is the official management decision to authorize operation of an
                     information system and to explicitly accept the risk, if any, to agency
                     operations, agency assets, or individuals based on the implementation of an
                     agreed-upon set of security controls. It is essential that agency officials have
                     the most complete, accurate, and trustworthy information possible on the
                     security status of their information systems in order to make timely, credible,
                     risk-based decisions on whether to authorize operation of those systems. The
                     information and supporting evidence needed for security accreditation is
                     developed during a detailed security review of an information system,
                     typically referred to as security certification.

                     We found that:

                     •   Agency officials accredited their systems (see exhibit A), based in part on
                         the recommendation of the certifying official, despite the fact that the
                         supporting documentation did not meet National Institute of Standards
                         and Technology (NIST) and Department guidelines;

                     •   system risk ratings based on the confidentiality, integrity, and availability
                         of the data residing on the system were inconsistent with Federal
                         Information Processing Standard 199 which established the methodology
                         to use when assigning risk ratings; and

                     •   independent testing and evaluation processes did not provide adequate
                         assurances that controls were in place and operating effectively.

                     We also found that agency and departmental oversight of the C&A process as
                     well as the continuous monitoring phase of the process could be improved
                     significantly. These conditions occurred because, as evidenced by our last 5
                     years’ Government        Information Security Reform Act and Federal
                     Information System Management Act reports and despite repeated pledges of
                     corrective action, the Department and its agencies have not addressed the
                     Office of Management and Budget (OMB) requirement that major
                     applications and general support systems be certified and accredited. Only
                     after OMB made a specific call for compliance by the end of fiscal year 2004
                     in its passback language, did the Department implement an ambitious process
                     and schedule to meet the stringent timeframes. Further, the Department did
                     not have controls in place to ensure that the documents prepared to support
                     system accreditations met departmental and NIST guidelines. In addition,
USDA/OIG-A/50501-4-FM                                                                          Page i
                               agency personnel relied on the contractors completing the documentation to
                               ensure all requirements were met adequately.

                               Given these timeframes and the absence of prior accreditations, the agencies
                               could not have produced complete, accurate, and trustworthy information
                               given the depth and breadth of documentation required to adequately support
                               each accreditation. Ultimately, the Department and its agencies expended an
                               estimated $20.3 million with outside contractors to fulfill the C&A
                               requirements. However, the results, based on our analysis, were of little
                               utility. 1

                               The Department was prepared to use its fiscal year 2004 C&A efforts to
                               report compliance with OMB Circular No. A-130, which had been previously
                               reported as a material weakness in the Department’s financial statements and
                               our Federal Information Security Management Act reports. While the
                               Department’s efforts were commendable, completion of the first accreditation
                               process is not the panacea to correct the Department’s security weaknesses;
                               rather it was the first step in identifying controls, documenting and testing
                               those controls, and ensuring that the process gets integrated into each
                               system’s development life cycle as OMB intended.

                               The following are the deficiencies we identified in our review.

                               •    Accreditating officials within the Department accredited systems based
                                    on inadequate and incomplete documentation. The Department did not
                                    have controls in place to ensure that the documents prepared to support
                                    system accreditations met departmental and NIST guidelines. By
                                    accrediting an information system, an agency official accepts
                                    responsibility for the security of the system and is fully accountable for
                                    any adverse impacts to the agency if a breach of security occurs. As a
                                    result, not all system controls may have been documented and tested.
                                    Systems may continue to be at risk if all controls are not implemented
                                    effectively.

                               •    Agencies had not applied the appropriate risk levels to their systems in
                                    accordance with NIST guidance or, in some cases, their own procedures.
                                    Further, agencies have not ensured that the risk ratings they assigned
                                    remained consistent throughout all of the C&A documents. This occurred
                                    because multiple contractors were employed to produce the various C&A
                                    documents without being privy to each other’s conclusions and the
                                    agencies did not have controls in place to ensure the adequacy and
                                    sufficiency of the documentation supplied by the contractors. Further, the

1
 Estimated cost figures were obtained from an Office of the Chief Information Officer (OCIO) provided tracking spreadsheet. This
figure has not been audited nor was it our objective to determine the actual amount expended within the Department for the C&A
process.
USDA/OIG-A/50501-4-FM                                                                                                  Page ii
                        agencies had not effectively monitored contractor compliance, and the
                        agencies had not ensured the proper controls were applied based on the
                        assessed risk level. Without a proper risk level assignment, the agencies
                        cannot design adequate risk-based security programs to ensure the
                        appropriate security controls are in place to protect the confidentiality,
                        integrity, and availability of their information systems.

                   •    Agencies and their contractors had not conducted Security Testing and
                        Evaluation (ST&E) testing based on NIST requirements of validating
                        whether documented security controls were in place and operating
                        effectively. This occurred mainly due to the agencies not having
                        effective controls in place to ensure that contractor-provided services and
                        deliverables were completed appropriately, and because of the stringent
                        timeframes imposed to complete the ST&E. As a result, the accreditation
                        decisions were based on incomplete information regarding the
                        effectiveness of security controls in the information systems.

                   •    Agencies had not fulfilled the requirements of full system accreditation
                        by establishing effective configuration management or continuous control
                        monitoring of their systems. In fact, many agencies identified these
                        processes as weaknesses on their Plan of Actions and Milestones
                        reporting. The agencies lack the controls necessary to continually
                        monitor their systems’ security, and have historically addressed
                        mandatory information technology security requirements only when
                        reported in Office of Inspector General or U.S. Government
                        Accountability Office reports. As a result, accrediting officials and
                        system owners can not be assured that system configurations are
                        maintained and properly controlled, and that controls are periodically
                        tested for continued effectiveness.

                   •    OCIO had not adequately tracked or monitored the status of agencies’
                        activities. Further, our review continued to show weaknesses in OCIO’s
                        ability to accurately maintain a Department-wide inventory of systems.
                        OCIO relied on the agencies to report systems, timeframes, and
                        milestones without independent verification. This resulted in the USDA
                        reporting inaccurate system authorization percentages to OMB.

Recommendations
In Brief           We recommended that OCIO:

                   •    Require the agencies to reevaluate the accreditation decision and the
                        documentation prepared during Phase I of its C&A efforts, and ensure
                        that the accreditation is supported by complete, accurate, and trustworthy
                        documentation which meets the requirements of NIST and departmental
                        guidance;

USDA/OIG-A/50501-4-FM                                                                      Page iii
                   •    establish processes and controls, including an oversight function, to
                        ensure agencies establish the proper risk ratings for its systems;

                   •    require all agencies to implement controls to ensure the ST&E process
                        provides the level of assurance needed by the accrediting official to
                        render an informed decision; and

                   •    OCIO should establish controls to periodically evaluate the accuracy of
                        information provided by the agencies.

Agency Response    OCIO generally agreed with the findings and recommendations in this report.
                   Its response is presented in its entirety as exhibit B of this report.




USDA/OIG-A/50501-4-FM                                                                  Page iv
Abbreviations Used in This Report



ACIO-CS           Associate Chief Information Office-Cyber Security
AQAS              Agricultural Quarantine Activity System
ARS               Agricultural Research Service
C&A               Certification and Accreditation
DAA               Designated Approving Authority
EAR               Enterprise Architecture’s Repository
EP                Estimates Processing System
FIPS              Federal Information Processing Standard
FISMA             Federal Information Security Management Act
FNS               Food and Nutrition Service
FSA               Farm Service Agency
F&ITO             Financial & IT Operations
FAS               Foreign Agricultural Services
GAO               U.S. Government Accountability Office
GISRA             Government Information Security Results Act
                  (superseded by FISMA)
GSM               Guaranteed Sales Manager System
IATO              Interim Authority To Operation
IT                Information Technology
IV&V              Independent Validation and Verification
JFMIP             Joint Financial Management Improvement Program
NASS              National Agricultural Statistics Service
NIST              National Institute of Standards and Technology
OCFO              Office of the Chief Financial Officer
OCIO              Office of the Chief Information Officer
OIG               Office of Inspector General
OMB               Office of Management and Budget
PFCS              Program Funds Control System
POA&M             Plan of Actions and Milestones
PPQ               Plant Protection and Quarantine
SCCM              Security Control Compliance Matrix
SP                Special Publication
ST&E              Security Testing and Evaluation
SSO               State Statistical Offices
USDA              U.S. Department of Agriculture




USDA/OIG-A/50501-4-FM                                                 Page v
Table of Contents

Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ....................................................................................................... v

Glossary .................................................................................................................................................vii

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 3

    Section 1 - Agencies Accredited Their Systems Based on Incomplete and Unreliable
                  Supporting Documentation ....................................................................................... 3

         Finding 1             Documents Supporting Agency C&A Did Not Meet Federal Guidelines .............. 4
                                   Recommendation No. 1.................................................................................... 8
                                   Recommendation No. 2.................................................................................... 9
         Finding 2             Agencies Inaccurately and Inconsistently Applied System Risk Ratings............. 10
                                   Recommendation No. 3.................................................................................. 12
         Finding 3             Security Testing and Evaluation (ST&E) Phase Did Not Yield Assurances
                               That System Security Controls Were in Place and Operating Effectively............ 12
                                   Recommendation No. 4.................................................................................. 15
                                   Recommendation No. 5.................................................................................. 15
                                   Recommendation No. 6.................................................................................. 16

    Section 2 – Agencies and the Department Have Not Implemented Effective Oversight and
                  Monitoring Processes ............................................................................................... 17

         Finding 4             Agencies Have Not Implemented Effective Oversight and Monitoring. .............. 17
                                  Recommendation No. 7.................................................................................. 19
         Finding 5             OCIO Monitoring and Oversight Could be Strengthened..................................... 19
                                  Recommendation No. 8.................................................................................. 21
                                  Recommendation No. 9.................................................................................. 22

Scope and Methodology........................................................................................................................ 23

Exhibit A – List of Agencies and Systems Reviewed ......................................................................... 24
Exhibit B – Agency Response............................................................................................................... 26




USDA/OIG-A/50501-4-FM                                                                                                                            Page vi
Glossary

Certification and Accreditation – A process mandated by the Office of Management and Budget
Circular No. A-130 requiring that IT system controls be documented and tested by technical personnel
and given the formal authority to operate by an agency official.

Network – Two or more computers connected to one another by a common communication standard.

Physical Access Controls – Processes or activities that physically limit access to computer systems or
networking devices. For instance, locking rooms where systems are stored.

Environmental Controls – Processes or activities that provide the optimum operating environment for
computer systems and networking components. For instance, air conditioning systems that keep
systems from overheating.

Local Area Network – A group of computers located in a small geographical area (such as a single
office building) connected by a common communication standard.

Major Application – One or more related applications that support a critical function of the agency
and/or that contain data considered sensitive by law.

Security Testing and Evaluation – One phase of the certification and accreditation where an
independent party evaluates and conducts testing of the controls established in and around a system.
The purpose is to determine whether controls as stated in the system documentation are adequate and
operating as prescribed.




USDA/OIG-A/50501-4-FM                                                                        Page vii
Background and Objectives
Background         Security accreditation is the official management decision given by a senior
                   agency official to authorize operation of an information system and to
                   explicitly accept the risk, if any, to agency operations, agency assets, or
                   individuals based on the implementation of an agreed-upon set of security
                   controls. Required by the Office of Management and Budget (OMB)
                   Circular No. A-130, Appendix III, “Security of Federal Automated
                   Information Resources,” dated November 30, 2000, security accreditation
                   provides a form of quality control and challenges managers and technical
                   staffs at all levels to implement the most effective security controls possible
                   in an information system, given mission requirements, technical constraints,
                   operational constraints, and cost/schedule constraints. By accrediting an
                   information system, an agency official accepts responsibility for the security
                   of the system and is fully accountable for any adverse impacts to the agency
                   if a breach of security occurs. Thus, responsibility and accountability are
                   core principles that characterize security accreditation.

                   It is essential that agency officials have the most complete, accurate, and
                   trustworthy information possible on the security status of their information
                   systems in order to make timely, credible, risk-based decisions on whether to
                   authorize operation of those systems. The information and supporting
                   evidence needed for security accreditation is developed during a detailed
                   security review of an information system, typically referred to as security
                   certification. Security certification is a comprehensive assessment of the
                   management, operational, and technical security controls in an information
                   system, made in support of security accreditation, to determine the extent to
                   which the controls are implemented correctly, operating as intended, and
                   producing the desired outcome with respect to meeting the security
                   requirements for the system. The results of a security certification are used to
                   reassess the risks and update the system security plan, thus providing the
                   factual basis for an authorizing official to render a security accreditation
                   decision.

                   The security certification and accreditation (C&A) process consists of four
                   distinct phases: (1) Initiation Phase, (2) Security Certification Phase, (3)
                   Security Accreditation Phase, and (4) Continuous Monitoring Phase. Each
                   phase in the security C&A process consists of a set of well-defined tasks and
                   subtasks that are to be carried out, as indicated, by responsible individuals
                   (e.g., the Chief Information Officer, authorizing official, authorizing
                   official’s designated representative, senior agency information security
                   officer, information system owner, information owner, information system
                   security officer, certification agent, and user representatives).

USDA/OIG-A/50501-4-FM                                                                       Page 1
                   Although the requirement to perform system C&A has been in place since
                   OMB Circular No. A-130 was originally issued in the mid-1980’s, the
                   Department and its agencies have not addressed the requirement. With the
                   passage of the Government Information Security Reform Act (GISRA) in
                   2000 and superseded by the Federal Information Security Management Act
                   (FISMA) in 2002, information technology (IT) security has received
                   additional attention in the Federal sector. We have reported continually the
                   lack of compliance with OMB Circular No. A-130 in the two GISRA and
                   three FISMA reports we have issued.

                   A significant force behind the Department’s C&A efforts in 2004 was budget
                   passback language handed down from OMB on the Department’s fiscal year
                   2005 budget request. OMB required that the Department certify and accredit
                   all of its systems by the end of fiscal year 2004.

Objectives         The audit objective was to determine the adequacy of the Department’s C&A
                   process and whether the process yielded adequate and reliable documentation
                   to properly accredit the Department’s systems as intended by OMB Circular
                   No. A-130.




USDA/OIG-A/50501-4-FM                                                                   Page 2
Findings and Recommendations
Section 1 - Agencies Accredited Their Systems Based on Incomplete and Unreliable
Supporting Documentation

                    It is essential that agency officials have the most complete, accurate, and
                    trustworthy information possible on the security status of their information
                    systems in order to make timely, credible, risk-based decisions on whether to
                    authorize operation of those systems. The information and supporting
                    evidence needed for security accreditation is developed during a detailed
                    security review of an information system. We found that:

                    •   Agency officials accredited their systems, based in part on the
                        recommendation of the certifying official and reliance on contractors,
                        despite the fact that the supporting documentation did not meet National
                        Institute of Standards and Technology (NIST) and Department guidelines
                        (i.e., thorough description of system boundaries and baseline security
                        controls);

                    •   system risk ratings based on the confidentiality, integrity, and availability
                        of the data residing on the system were inconsistent with Federal
                        Information Processing Standard (FIPS) Publication 199 which
                        established the methodology to use when assigning risk ratings, and

                    •   independent testing and evaluation processes did not provide adequate
                        assurances that controls were in place and operating effectively.

                    This occurred because, despite repeated audit disclosures and pledges of
                    corrective action, the Department and its agencies had not addressed the
                    OMB requirement that major applications and general support systems be
                    certified and accredited. Only after OMB made a specific call in its passback
                    language for compliance by the end of fiscal year 2004, did the Department
                    implement an ambitious process and schedule to meet the stringent
                    timeframes. Further, discussions with agency personnel disclosed that, due to
                    the timeframes allotted, they relied on the contractors completing the
                    documentation to meet the requirements adequately.

                    Given the timeframes allotted and the absence of prior accreditations, the
                    agencies could not have produced complete, accurate, and trustworthy
                    information given the depth and breadth of documentation required to
                    adequately support each accreditation. Agencies relied primarily on their
                    contractors to address the C&A requirements without controls in place to
                    ensure the adequacy and sufficiency of the documentation prepared by the


USDA/OIG-A/50501-4-FM                                                                         Page 3
                   contractors. Without this trustworthy information, agency officials could
                   have accepted greater risks than those already identified, overlook necessary
                   controls, and may be ill prepared to address security-related incidents.




Finding 1          Documents Supporting Agency C&A Did Not Meet Federal
                   Guidelines

                   Accreditation officials within the Department accredited systems based on
                   inadequate and incomplete documentation. The Department did not have
                   controls in place to ensure that the documents prepared to support system
                   accreditations met departmental and NIST guidelines. As a result, not all
                   system controls may have been documented and tested (see also Finding 3),
                   and systems may be at risk if all controls were not implemented effectively.

                   FISMA requires each Federal agency to develop, document, and implement
                   an agency-wide information security program to provide security for the
                   information and information systems that support the operations and assets of
                   the agency, including those provided or managed by another agency,
                   contractor, or other source. The information security program must include:

                        •   Periodic assessments of risk;

                        •   policies and procedures based on risk assessments;

                        •   plans for providing adequate information security;

                        •   security awareness training to users;

                        •   periodic testing and evaluation of the effectiveness of information
                            security policies, procedures, and practices;

                        •   processes to plan, implement, and evaluate the actions necessary to
                            remediate any deficiencies;

                        •   procedures for detecting, reporting, and responding to security
                            incidents; and

                        •   plans and procedures to ensure continuity of operations.

                   Security accreditation provides a form of quality control and challenges
                   managers and technical staffs at all levels to implement the most effective
                   security controls possible in an information system, given mission
                   requirements, technical constraints, operational constraints, and cost/schedule
USDA/OIG-A/50501-4-FM                                                                      Page 4
                                constraints. 2 By accrediting an information system, an agency official
                                accepts responsibility for the security of the system and is fully accountable
                                for any adverse impacts to the agency if a breach of security occurs. Thus,
                                responsibility and accountability are core principles that characterize security
                                accreditation. It is essential that agency officials have the most complete,
                                accurate, and trustworthy information possible on the security status of their
                                information systems in order to make timely, credible, risk-based decisions
                                on whether to authorize operation of those systems.

                                We identified numerous deficiencies in the six system C&A’s we reviewed
                                (see exhibit A) that have a material impact on the accrediting officials ability
                                to make an informed decision on system accreditation, and the agency’s
                                ability to manage an effective security program for its systems. Despite these
                                weaknesses, the accrediting officials fully accredited all six systems based, in
                                part, on the recommendation of the certifying official. Further, agency
                                personnel noted that due to the timeframes involved, they relied on their
                                contractor completing the documentation to meet the requirements
                                adequately. The following describes the most notable weaknesses in our
                                review.

                                Risk Assessments and System Accreditation Boundaries

                                One of the most difficult and challenging problems for authorizing officials
                                and senior agency information security officers is identifying appropriate
                                security accreditation boundaries for agency information systems. System
                                accreditation boundaries define the hardware, software, and other elements
                                which make up the system. Typically, these boundaries have the same
                                function or mission objective and essentially the same operating
                                characteristics and security needs, and reside on the same general operating
                                environment. Accreditation boundaries for agency information systems need
                                to be established before conducting the initial risk assessments and
                                developing the system security plans. Risk assessments influence the
                                development of the security controls for information systems and generate
                                much of the information needed for the associated system security plans.
                                Risk assessments can be accomplished in a variety of ways depending on the
                                specific needs of the agency.

                                When defining the system accreditation boundaries for its financial data
                                warehouse, the Office of the Chief Financial Officer (OCFO) had not
                                documented all of the system resources, such as the hardware and software,
                                that made up the system boundaries. Without a complete list, all the
                                associated risks to the system cannot be identified. Further, OCFO
                                completed only an executive level risk assessment and placed reliance on the
2
  Appendix revises procedures formerly contained in Appendix III to OMB Circular No. A-130 (50 FR 52730; December 24, 1985), and
incorporates requirements of the Computer Security Act of 1987 (P.L. 100-235) and responsibilities assigned in applicable national
security directives.
USDA/OIG-A/50501-4-FM                                                                                                    Page 5
                              Office of the Chief Information Officer’s (OCIO) network to provide security
                              for this system without ensuring that OCIO’s network had been properly
                              certified and accredited. The OCIO network was undergoing C&A at the
                              same time and had not been formally accredited.

                              The Farm Service Agency (FSA) prepared its system’s risk assessment with a
                              proper technical description of the system, but had not defined the scope of
                              the risk assessment including the system accreditation boundaries or the areas
                              to assess.

                              Finally, Rural Development provided a technical description of the system,
                              but had not defined the system accreditation boundaries, or the scope of the
                              risk assessment. Further, the risk assessment had not described the business
                              or technical requirements of the system.

                              Baseline Security Controls

                              Baseline security controls provide a starting point for agencies in addressing
                              the necessary safeguards and countermeasures required for their information
                              systems.     Common security controls should be identified during a
                              collaborative agency-wide process with the involvement of the senior agency
                              information system security officers, information system owners, security
                              officer, and authorizing officials. Agencies should perform additional
                              analyses to determine if adjustments to the baseline set of security controls
                              are needed based on specific threats to each system.

                              None of the five agencies had documented the baseline security controls in
                              the six system C&As we reviewed (see exhibit A). Rural Development
                              documented the baseline security controls for its Program Funds Control
                              System as “To be determined.” A Rural Development official stated that its
                              Guaranteed Loan System was developed before security was a requirement
                              within the system development lifecycle. However, the Department had a
                              system development lifecycle process in place that included security
                              provisions since 1988. 3 Furthermore, that agency formally adopted by
                              reference the Department’s development lifecycle process in its own
                              procedures.

                              Rural Development also placed reliance that its Program Funds Control
                              System was developed using a Joint Financial Management Improvement
                              Program (JFMIP) certified commercial product. The certification process
                              includes consideration and evaluation of security features. While it would be
                              correct to rely on those controls if no changes had been made to the
                              commercial package, the Security Plan states that the system is a commercial

3
 Department Manual 3200-001, “Application System Life Cycle Management,” dated March 3, 1988. (This manual has been declared
obsolete as of April 5, 2005.)
USDA/OIG-A/50501-4-FM                                                                                              Page 6
                   product with some customization to meet selected business requirements and
                   development of software processes to interface with required legacy systems.
                   Because of these modifications, Rural Development needed to conduct its
                   own testing to ensure the controls tested during JFMIP compliance were still
                   functioning as intended.

                   Security Plan

                   The development of system security plans is another important activity in an
                   agency’s information security programs that directly support security
                   accreditation and are required by FISMA and OMB Circular No. A-130,
                   Appendix III. System security plans provide an overview of the information
                   security requirements and describe the security controls in place or planned
                   for meeting those requirements. System security plans can include as
                   references or attachments, other important security-related documents
                   produced as part of an agency’s information security program.

                   OCFO had not fully described and documented in its Mainframe Financial
                   Data Warehouse security plan the system boundaries as well as system
                   hardware and software component details, including vendor and licensing
                   information. The system security plan states that a description of system
                   components are listed in the disaster recovery plan. However, our review
                   found that the disaster recovery plan did not have a complete and accurate
                   listing. Additionally, the system security plan stated that service level
                   agreements with interconnecting systems were pending, and the security plan
                   did not include system rules of behavior.

                   Rural Development prepared a security plan for its Guaranteed Loan System
                   but did not document that system’s controls. While the agency did document
                   certain security controls in its security controls compliance matrix, the
                   documentation was inadequate for the system under review since those
                   controls were not application specific, but rather described the general control
                   environment within which the system operated.

                   The National Agricultural Statistics Service (NASS) had not documented in
                   its Estimates Processing System security plan (1) the flow of information
                   through the system, (2) the risk assessment methodology applied when
                   assigning risk, (3) the physical security measures in place to protect the
                   system, or (4) the controls in place to authorize or restrict the activities of
                   users and system personnel with access to the system.




USDA/OIG-A/50501-4-FM                                                                       Page 7
                                Disaster Recovery Procedures

                                According to NIST, one of the essential elements in an effective security
                                program is a plan and procedures to ensure continuity of operations for
                                information systems that support the operations and assets of the agency. 4

                                OCFO did not document several critical elements in its system disaster
                                recovery plan including (1) roles and responsibilities of key officials during
                                the recovery process, (2) the testing that should be performed at the alternate
                                site before the system is ready to process transactions, (3) the specific
                                training and testing procedures, or (4) how backup tapes and other critical
                                material from off-site storage are sent to the recovery site. OCFO also placed
                                reliance on another agency to re-establish system operations after a disaster is
                                declared. To complicate matters, the listing of system hardware and software
                                components contained in the disaster recovery plan was not complete and
                                contained the incorrect software versions needed to restore the system’s
                                operations.

                                Rural Development had not documented its Program Funds Control System’s
                                architecture, location, and other critical technical considerations. The
                                system’s architecture is critical during system recovery because it documents
                                the security devices in place to protect the data residing on the system, and
                                describes the internal and external connections to other systems. Further, the
                                Rural Development had not identified the specific instructions for system
                                shutdown or the establishment of the system in a new location. Finally, Rural
                                Development had not documented the testing that should be performed on the
                                alternate system before its placed into operation, or that all employees should
                                be trained in their responsibilities during a disaster.

                                NASS documented in its Estimates Processing System’s disaster recovery
                                plan a statement to refer to the system’s trusted facilities manual for critical
                                disaster recovery details. When we reviewed the trusted facilities manual,
                                that document referred us back to the system’s disaster recovery plan.
                                Therefore, NASS had not documented the specifics of the disaster recovery
                                process.

Recommendation No. 1

                                OCIO should require the agencies to reevaluate the accreditation decision and
                                the documentation prepared during Phase I of its C&A efforts, and ensures
                                that the accreditation is supported by complete, accurate, and trustworthy
                                documentation which meets the requirements of NIST and departmental
                                guidance.

4
NIST Special Publication (SP) 800-37, “Guide for the Security Certification and Accreditation of Federal Information Systems,” dated
May 2004.
USDA/OIG-A/50501-4-FM                                                                                                      Page 8
Agency Response    OCIO met with each of the agencies cited in this audit finding and agencies
                   have said that they have documentation that verifies compliance before and
                   after the audit. OCIO has asked the Office of Inspector General (OIG) to
                   allow a contractor to verify the agency’s evidence of compliance and validate
                   security documentation. As part of the Department’s oversight process and
                   the post-accreditation stage of USDA’s C&A policy, OCIO will also perform
                   a detailed independent validation and verification (IV&V) of the
                   accreditation packages of all accredited systems by September 30, 2006 to
                   ensure that they are accurate, trustworthy, and meet the requirements of NIST
                   and departmental policy.

OIG Position       We concur with OCIO management decision. However, it should be noted
                   that OCIO contracted for a similar IV&V at the same time we began our
                   audit. Preliminary findings of that IV&V effort noted similar issues such as:
                   (1) lack of complete documentation, (2) Plan of Actions and Milestones
                   (POA&M) not updated with all known weaknesses, (3) inconsistency of risk
                   ratings among the C&A documents and with OCIO’s tracking system, and
                   (4) Security Testing and Evaluation (ST&E) reports inconsistently prepared
                   and applied.

Recommendation No. 2

                   OCIO should develop and implement a policy that all agencies establish
                   controls to ensure that the documentation prepared to support system
                   accreditation is complete, accurate, reliable, and meets all NIST and other
                   mandated documentation standards.

Agency Response    USDA’s C&A guidance will be signed into policy on September 30, 2005.
                   This policy establishes controls to ensure that the documentation prepared to
                   support system accreditation is complete, accurate, reliable, and meets all
                   NIST and other mandated documentation standards. Specifically, USDA
                   agencies must receive a required approval and concurrence from OCIO of the
                   certification package before it can be forwarded to the designated approving
                   authority (DAA) for an accreditation decision. OCIO will have 30 days to
                   review the certification package for completeness, accuracy, reliability, and
                   that it meets all NIST and USDA mandated documentation standards.


OIG Position       We concur with OCIO management decision.




USDA/OIG-A/50501-4-FM                                                                    Page 9
Finding 2          Agencies Inaccurately and Inconsistently Applied System Risk
                   Ratings

                   The agencies had not applied the appropriate risk levels to their systems in
                   accordance with NIST guidance or, in some cases, their own procedures.
                   Further, agencies had not ensured that the risk ratings they assigned remained
                   consistent throughout all of the C&A documents. This occurred because
                   multiple contractors were employed to produce the various C&A documents
                   without being privy to each other’s conclusions. Further, the agencies relied
                   on the contractors completing their documentation without effective
                   monitoring and oversight. Without a proper risk assignment, the agencies
                   cannot design adequate risk-based security programs to ensure the
                   appropriate security controls are in place to protect the confidentiality,
                   integrity, and availability of their information systems.

                   NIST SP 800-37 requires the security category of information systems to be
                   determined using FIPS Publication 199, and documented in the system
                   security plan. FIPS Publication 199 establishes security categories for both
                   information and information systems. The security categories are based on
                   the potential impact on an organization should certain events occur which
                   jeopardize the information and information systems needed by the
                   organization to accomplish its assigned mission, protect its assets, fulfill its
                   legal responsibilities, maintain its day-to-day functions, and protect
                   individuals. FIPS Publication 199 defines three levels of potential impact on
                   organizations or individuals should there be a breach of security (i.e., a loss
                   of confidentiality, integrity, or availability). These levels are high, moderate,
                   and low. Each agency must apply these definitions within the context of its
                   own organization and the overall national interest.

                   Specific examples of misapplied and inconsistent risk levels are detailed
                   below.

                   •    Rural Development had its own definition for a “High” risk system as
                        follows: “Information requires the greatest safeguards at the user level.
                        Highly sensitive information includes critical or proprietary information,
                        financial or grant data, and records subject to the Privacy Act.” Rural
                        Development documented in its Program Funds Control System’s
                        security plan that the sensitivity and criticality of the information stored
                        within, processed by, or transmitted by the system is Privacy Act
                        protected, unclassified data.         Additionally, Rural Development
                        documented in its Privacy Impact Assessment that the system includes
                        customer social security or Federal tax identification numbers. Based on

USDA/OIG-A/50501-4-FM                                                                      Page 10
                        its own definition, Rural Development should have rated the
                        confidentiality for the system as “High.” However, the agency rated its
                        system’s confidentiality as “Low.”          Rural Development also
                        inconsistently applied risk rating between its security plan and risk
                        assessment as follows:

                                                    Security Plan             Risk Assessment
                         Confidentiality              Medium                        Low
                         Integrity                      High                      Medium
                         Availability                 Medium                       High


                   •    NASS documented the risk to its Estimates Processing Systems as
                        follows:

                            Confidentiality - High. Data residing on the system is considered to
                            be sensitive but unclassified.

                            Integrity - High. Data must be accurate in order to maintain the
                            integrity of the agency’s final reports.

                            Availability - Moderate. Both the application and data must be
                            available to ensure the agency meets its mission and announce final
                            reports on their announced due date.

                        However, NASS documented risk ratings in the same application’s
                        Security Plan as follows: Confidentiality – Moderate; Integrity –
                        Moderate; and, Availability – Low.

                   •    FSA had not rated any of its systems as “High” risk, rather it rated a
                        majority of its systems as “Moderate.” FSA rated the Guaranteed Sales
                        Manager System we reviewed as “Moderate” but documented that the
                        system contained sensitive information that must be protected from
                        unauthorized, unanticipated, or unintentional modification.       FSA
                        documented that the compromise of this application or the general data
                        could result in fraud, misallocation of funds, and access to sensitive
                        records.

                   •    Finally, the Agricultural Research Service (ARS), while not one of the
                        agencies we specifically selected for review, reported all of its systems as
                        “Low” risk. ARS operates research facilities across the country and
                        maintains critical research data on its systems, some of which may impact
                        the health of the American population. However, by rating its systems as
                        low risk, the agency averted the requirement to conduct full system


USDA/OIG-A/50501-4-FM                                                                      Page 11
                                     accreditations, and instead conducted a less costly and more streamlined
                                     C&A process.

Recommendation No. 3

                                OCIO should establish a policy requiring agencies to establish controls to
                                ensure that proper risk ratings are applied to its systems.

Agency Response                 USDA’s C&A guidance will be signed into policy on September 30, 2005.
                                This policy requires agencies to use FIPS Publication 199 to determine the
                                appropriate security categorization for the system or application and provide
                                this determination in writing. OCIO will provide detailed training on this
                                process and continue to provide oversight through mandatory C&A
                                concurrence, annual security reviews, and IV&V of the Department’s C&A
                                process.

OIG Position                    We concur with OCIO management decision.




Finding 3                       Security Testing and Evaluation (ST&E) Phase Did Not Yield
                                Assurances That System Security Controls Were in Place and
                                Operating Effectively.

                                Agencies and their contractors had not conducted thorough ST&E testing to
                                validate whether security controls were in place and operating effectively.
                                This occurred mainly due to the stringent timeframes imposed to complete
                                the ST&E, and the agencies’ reliance on contractors without controls to
                                ensure that contractor-provided services and deliverables were completed
                                adequately. As a result, the accrediting official could not be assured, by an
                                independent party, of the appropriateness and effectiveness of each system’s
                                security controls.

                                NIST describes how to establish and how to carry out a C&A program for
                                computer security. 5 Certification consists of a technical evaluation of a
                                sensitive application to see how well it meets security requirements. As part
                                of the certification process, the ST&E is an independent review of the
                                security controls in place. NIST identified four tasks in a basic ST&E: (1)
                                are application security requirements acceptable, (2) do application security
                                functions satisfy the requirements, (3) do the security functions exist, and (4)
                                does the implementation method provide assurance that security functions are
                                acceptably implemented?
5
 FIPS Publication 102, “Guideline For Computer Security Certification And Accreditation,” dated September 27, 1983.
USDA/OIG-A/50501-4-FM                                                                                                 Page 12
                   The major purpose of certification is to determine whether application
                   safeguards satisfy security requirements. This process is only meaningful if
                   the application has well-defined security requirements. For certification to be
                   useful, the security requirements embedded in the application must be
                   examined critically to determine whether they are reasonable and whether
                   they comply with Federal, agency, and user requirements. Accurate,
                   complete, and understandable security requirements are fundamental to
                   certification. Other testing should include authentication (e.g., passwords),
                   authorization (e.g., subject/object definition and capabilities), and security
                   monitoring as well as proper operation, performance, and (ideally)
                   penetration resistance of these functions. Most importantly, however, testing
                   should establish that controls are acceptably implemented.

                   Just a few of the instances where we identified inadequate ST&E testing are
                   discussed below.

                   •    Our review of the ST&E report for Guaranteed Loan System disclosed
                        that the ST&E team did not perform any tests on the controls internal to
                        that specific system. The ST&E team limited testing to a review of the
                        security plan, Trusted Facilities Manual, and interviews with Rural
                        Development personnel.

                   •    The ST&E team within NASS limited its tests to the use of automated
                        vulnerability scan tools; and because of time constraints, manual
                        assessments were based solely on the use of questions generated from the
                        Estimates Processing System’s Security Control Compliance Matrix
                        (SCCM). The ST&E team also reviewed the Security Features Users
                        Guide, Trusted Facilities Manual, Privacy Impact Analysis, System
                        Security Plan, and the Initial Risk Assessment. The ST&E report does
                        not identify any validation of controls, or processing of test transactions.

                   •    According to Rural Development’s Program Funds Control System
                        ST&E report, the assessment team conducted an analysis of the controls
                        listed in the System Security Plan, the findings of the Risk Assessment,
                        and all of the controls listed in SCCM with the exception of those deemed
                        outside the system boundary. The controls listed in the system’s SCCM
                        are general in nature and applied to all of the agency’s systems. We
                        found no evidence that specific controls related only to that system were
                        tested.

                   •    The ST&E team for the Animal and Plant Health Inspection Service’s
                        Agricultural Quarantine Activity System, using an automated
                        vulnerability testing tool, identified 60 high and 15 medium risk
                        vulnerabilities in the database application on which the system resides.
                        Many of these vulnerabilities related to the existence of default or blank
USDA/OIG-A/50501-4-FM                                                                      Page 13
                                   passwords, excessive privileges assigned to non-administrator users, and
                                   the ability to authenticate users without the encryption of passwords.
                                   Despite these findings, the ST&E team inappropriately concluded that the
                                   system vulnerabilities were considered to be very low. 6

                               •   Finally, contractors employed to test FSA’s Guaranteed Sales Manager
                                   System were not furnished with basic documents needed for their review.
                                   According to the ST&E report, the contractors were not furnished with a
                                   copy of the System Security Plan that documents controls in the system,
                                   or the Contingency Plan. A thorough review of controls can not be
                                   conducted without access to these documents. Further, the ST&E team
                                   conducted vulnerability scans on a segment of the general control
                                   environment that contained no components of the system under review;
                                   and deemed many of the areas of security testing, such as logical access
                                   controls, data integrity, and validation controls, as not applicable. It is
                                   doubtful that the team’s findings provided any value to the accrediting
                                   official of the system being tested.

                               The lack of quality within the ST&E process can be further demonstrated by
                               comparing them to agencies’ POA&Ms, an OMB-required plan to address
                               significant IT weaknesses. Rural Development reported on its POA&M,
                               dated August 31, 2004, 56 outstanding common security control weaknesses
                               and 183 application-specific weaknesses for its Guaranteed Loan System,
                               some of which were identified by prior OIG audits, that would be corrected
                               by September 30, 2005. By contrast, the ST&E team reported only 24
                               weaknesses in that same application, and 5 of those reported weaknesses
                               dealt with incomplete documentation, which should have been completed
                               prior to the ST&E, such as the security plan and Security Features Users
                               Guide. We found no evidence to suggest that the agencies attempted to
                               reconcile the weaknesses found in the POA&M with those identified by the
                               ST&E team.

                               As of March 10, 2005, NASS reported that OIG-identified weaknesses still
                               existed. That POA&M identified 3 system-specific weaknesses and an
                               additional 58 general control weaknesses that materially affect its Estimates
                               Processing System’s accreditation. By contrast, the ST&E team for that
                               system reported only one medium weakness in the system regarding the
                               documentation of job descriptions that accurately reflect assigned duties and
                               responsibilities and to segregate duties as necessary.

                               The ST&E process provides the accrediting official with assurance, through
                               independent testing and verification, that the controls documented in the
                               security plan and other security planning documents have been implemented

6
 We did not attempt to contact the contractor that performed the ST&E. The contractor completed their ST&E months prior to our
review.
USDA/OIG-A/50501-4-FM                                                                                               Page 14
                   and are operating effectively with the desired results. Therefore, it is critical
                   that the Department establish controls to ensure the quality of this process.

Recommendation No. 4

                   OCIO should establish a policy which requires all agencies to implement
                   controls to ensure the ST&E process provides the level of assurance needed
                   by the accrediting official to render an informed decision.

Agency Response    USDA’s C&A guidance will be signed into policy on September 30, 2005.
                   This policy requires all agencies to conduct a detailed ST&E to ensure the
                   ST&E process provides the level of assurance needed by the accrediting
                   official to render an informed decision. It also requires agencies to develop
                   test objectives derived from the security controls identified in Phase I. These
                   test objectives should correspond to the appropriate technical requirements to
                   test the security features of operating systems and software used for the
                   system, administrative, procedural, environmental, physical, and
                   communications security requirements. It then requires agencies to write
                   detailed procedures to test each control or requirement.

                   Procedures consist of hands-on testing for technical requirements, interviews
                   with personnel for administrative requirements, document review for
                   procedural requirements, and observation of facilities for environmental and
                   physical requirements, or a combination of techniques. The extent of the
                   ST&E activities will vary according to the security categorization of the
                   system. Systems that process information at a higher sensitivity or criticality
                   level will need more involved verification activities, such as penetration
                   testing, than systems that process non-sensitive information. OCIO will
                   ensure compliance to this policy through compliance reviews, C&A tracking
                   activities, and IV&V.

OIG Position       We concur with OCIO management decision.

Recommendation No. 5

                   OCIO should establish a policy which requires agencies to implement
                   controls ensuring that all ST&E findings are included in the agency
                   POA&Ms.

Agency Response    USDA’s C&A guidance will be signed into policy on September 30, 2005.
                   This policy requires agencies to conduct a ST&E, document all ST&E
                   findings that require correction, and include them in the agency POA&Ms.
                   OCIO-Cyber Security will provide oversight to this process by identifying
                   and tracking all agencies ST&E POA&Ms to ensure resolution or
                   remediation.

USDA/OIG-A/50501-4-FM                                                                      Page 15
OIG Position       We concur with OCIO management decision.

Recommendation No. 6

                   OCIO should implement a policy and controls to perform its own sufficiency
                   review of ST&E findings and conclusions prior to final accreditation by
                   agency officials.

Agency Response    USDA’s C&A guidance will be signed into policy on September 30, 2005.
                   OCIO has modified it to ensure that prior to formal submission of the
                   certification package to the DAA, the certification officer will submit the
                   package and all supporting documentation to the Associate Chief Information
                   Office-Cyber Security (ACIO-CS) for a concurrence review. The ACIO-CS
                   will perform an in-depth review of the certification package and will either
                   concur with the recommendation to accredit, recommend/concur with the
                   need (and requisite mitigation plan) to issue an Interim Authority To
                   Operation (IATO) or make the determination that the certification package is
                   insufficient for accreditation or an IATO. The concurrence of the ACIO-CS
                   is mandatory prior to submission to the DAA.

OIG Position       We concur with OCIO management decision.




USDA/OIG-A/50501-4-FM                                                                  Page 16
Section 2 – Agencies and the Department Have Not Implemented Effective Oversight
and Monitoring Processes

                    The certification and accreditation process does not occur periodically, but
                    should be fully integrated into each system’s development lifecycle in the
                    form of continuous monitoring and testing of controls. Agencies should
                    establish policies over these monitoring activities and effect controls to
                    ensure compliance with those policies. Further, the Department’s OCIO
                    should establish processes and controls to ensure that each agency meets the
                    requirements of the C&A process and other Federally mandated security
                    controls, as well as maintain an accurate inventory of systems throughout the
                    Department. Our review identified needed improvement by the agencies and
                    OCIO in the area of continuous monitoring.




Finding 4           Agencies Have Not Implemented Effective Oversight and
                    Monitoring.

                    Agencies had not fulfilled the requirements of full system accreditation by
                    establishing effective configuration management or continuous control
                    monitoring of their systems. Agencies had not adequately documented their
                    controls over continuous system monitoring; many agencies identified
                    weakness on their POA&M report. Further, despite continual reporting of IT
                    weaknesses in the agencies by OIG and the U.S. Government Accountability
                    Office, agencies have not proactively established controls to ensure they
                    comply with Department, OMB, and NIST requirements. Finally, OCIO
                    lacks effective policies and oversight to ensure that agencies have established
                    effective controls. As a result, accrediting officials and system owners can
                    not be assured that system configurations are maintained and properly
                    controlled, and that controls are periodically tested for continued
                    effectiveness.

                    According to NIST, a critical aspect of the security C&A process is the post-
                    accreditation period involving the continuous monitoring of security controls
                    in the information system over time. An effective continuous monitoring
                    program requires:

                        •   Configuration management and configuration control processes,

                        •   security impact analyses on changes to the information system, and

                        •   assessment of selected security controls in the information system and
                            security status reporting to appropriate agency officials.

USDA/OIG-A/50501-4-FM                                                                     Page 17
                                Agencies must recognize the importance of documenting proposed or actual
                                changes to the information system and to subsequently determine the impact
                                of those proposed or actual changes on the security of the system.
                                Information systems will typically be in a constant state of migration with
                                upgrades to hardware, software, or firmware and possible modifications to
                                the surrounding environment where the system resides. Documenting
                                information system changes and assessing the potential impact those changes
                                may have on the security of the system is an essential aspect of continuous
                                monitoring and maintaining the security accreditation.

                                Configuration Management

                                The implementation of a formal system configuration management plan is a
                                requirement for system accreditation. Configuration management ensures, to
                                the extent possible, that systems are configured alike to allow for testing of
                                updates prior to implementation and expedite the mitigation of
                                vulnerabilities. The configuration management plans we reviewed did not
                                provide the level of detail needed to implement an effective configuration
                                management program.

                                Rural Development failed to document critical elements of its Program Funds
                                Control System’s configuration management plan including the roles and
                                responsibilities for ensuring proper configuration management execution; and
                                the specific change control steps used to document, test, and implement
                                system changes.

                                FSA did not document its configuration management plan at all. Currently,
                                that agency reports that configuration management continues to be a
                                weakness on its POA&M.

                                Security Control Monitoring

                                Another critical element of the continuous monitoring process is to
                                periodically select a subset of controls and conduct tests to ensure those
                                controls continue to operate as intended. While this process is also one phase
                                of the C&A process, OMB’s revised Circular No. A-123, which becomes
                                effective in fiscal year 2006, requires agencies to document and periodically
                                test the effectiveness of their controls, especially on those systems that
                                impact the agency’s ability to produce accurate and reliable financial
                                reporting data. 7

                                None of the agencies (see exhibit A) had documented their procedures or
                                processes for periodically selecting and testing controls in the systems we

7
 OMB’s revised Circular No. A-123, “Management’s Responsibility for Internal Control,” dated December 21, 2004.
USDA/OIG-A/50501-4-FM                                                                                             Page 18
                   reviewed. At least two agencies, Rural Development and OCFO, reported in
                   their POA&M that security control monitoring was an outstanding weakness.

                   Ensuring effective configuration management and periodic controls
                   monitoring are essential processes in each system’s life cycle, and are
                   required for system accreditation and subsequent re-accreditations. Agency
                   accrediting officials and system owners need to ensure that controls over
                   configuration management and security monitoring are strictly enforced.

Recommendation No. 7

                   OCIO must implement a policy and effective oversight to ensure that
                   agencies implement controls over system configuration management and
                   security controls monitoring.

Agency Response    USDA’s Department Manual 3520-001, “Configuration Management Policy
                   and Responsibilities,” was approved July 17, 2004. This policy requires
                   agencies to establish and implement a Configuration Management program
                   that provides overall guidance and procedures for their systems. They must
                   also create a Configuration Control Board, with an approved charter and
                   operating procedures and provide a management plan signed by their Chief
                   Information Officer describing the Configuration Management program they
                   have implemented or a POA&M describing their approach to developing and
                   implementing one.        The ACIO-CS will ensure that Configuration
                   Management Policy is implemented on all new existing information systems
                   and networks that process classified or sensitive but unclassified information.
                   It will also evaluate and report on agency or mission area compliance to the
                   Chief Information Officer during periodic security reviews and evaluations
                   including C&A.

OIG Position       While we agree with OCIO’s proposed corrective actions, to reach
                   management decision OCIO needs to provide us a summary of its planned
                   process for ensuring that the agencies are complying with Department
                   Manual 3520-001, “Configuration Management Policy and Responsibilities,”
                   dated July 17, 2004, and OCIO’s timeframes for ensuring compliance.




Finding 5          OCIO Monitoring and Oversight Could be Strengthened.

                   OCIO’s methodology for tracking the status of C&A within the agencies had
                   not met NIST guidelines and reflected C&A activities inaccurately. OCIO
                   relied on the agencies to report timeframes and milestones without

USDA/OIG-A/50501-4-FM                                                                    Page 19
                                independent verification.     This resulted in the Department reporting
                                inaccurate system accreditation percentages to OMB.

                                NIST requires agencies to prepare a plan of execution for their C&A
                                activities. 8 This plan is to identify the appropriate resources (e.g., supporting
                                organizations, funding, and individuals with critical skills) needed for the
                                security certification effort, and contain specific tasks, milestones, and a
                                delivery schedule for C&A activities. During our entrance conference, OCIO
                                informed us that it had not required agencies to prepare a plan of execution
                                for each of its systems. Instead, OCIO tracked the information required by
                                the plan of execution, such as costs and timeframes, for each agency and
                                system within the Department.

                                In its fiscal year 2004 FISMA report, OCIO reported, despite the lack of
                                assurance that the C&As were performed adequately, that the U.S.
                                Department of Agriculture (USDA) had completed certification and
                                accreditation on 93 percent of USDA’s systems. After our review of OCIO’s
                                tracking spreadsheet and consideration of the errors we found, we determined
                                that only 86 percent of USDA systems had actually been accredited by fiscal
                                yearend. The inaccuracies in OCIO’s tracking spreadsheet made it difficult
                                to determine the true status of the Department’s C&A process.

                                Just a few of the inaccuracies we identified are described below.

                                •    OCIO recorded that 9 of the 13 systems at the Food and Nutrition Service
                                     (FNS) had been accredited on September 30, 2002. Our work at FNS
                                     under another audit disclosed that FNS had not accredited any of its
                                     systems. The systems were certified, but not accredited. Certification is
                                     an attestation that security controls are in place and operating effectively.
                                     FNS’ system certification did not include the ST&E process which
                                     assumes that an independent party has tested the system. Certification
                                     alone does not qualify as compliance with OMB Circular No. A-130.

                                •    OCIO had not recorded the proper system risk rating because OCIO
                                     relied on the agencies to provide this information without adequate
                                     followup processes. We identified 47 of the 460 systems were missing an
                                     overall risk rating. Without a proper risk rating, OCIO could not ensure
                                     that systems are properly accredited in priority order.

                                •    OCIO had not recorded all of the contractors and funding resources
                                     needed to complete the C&A efforts, once again due to its reliance on the
                                     agencies and inadequate followup processes. On the tracking spreadsheet
                                     dated September 30, 2004, we identified 89 systems where OCIO had not
                                     recorded the Phase I contractor, and 317 systems where OCIO had not

8
 NIST SP 800-37, “Guide for the Security Certification and Accreditation of Federal Information Systems,” dated May 2004.
USDA/OIG-A/50501-4-FM                                                                                                       Page 20
                                    recorded the Phase II contractor.9 Finally, we identified 40 and 272
                                    systems in Phases I and II, respectively, where OCIO had not recorded
                                    any funding resources needed to complete the C&A process. In addition,
                                    OCIO had not recorded the C&A cost of either phase for 36 systems.

                                While we recognize that OCIO wanted to monitor the C&A process by
                                maintaining the plan of execution, its tracking of the process was flawed and
                                resulted in misreporting the true picture of the C&A process within the
                                Department. OCIO should develop and implement oversight controls to
                                ensure compliance with departmental, OMB, and NIST requirements for the
                                C&A process.

                                OCIO’s reliance on agency reporting of C&A information also led us to
                                question the reliability of the Department’s inventory of systems. In response
                                to our fiscal year 2004 FISMA report, OCIO reported to have a more
                                accurate inventory of systems within the Department. However, during our
                                audit, OCIO requested that the agencies update its tracking system with the
                                missing risk ratings, contractor information, and costs as noted above. OCIO
                                presented us an updated system listing dated April 11, 2005, which contained
                                an additional 65 systems (an increase of over 14 percent) from the tracking
                                spreadsheet we used to select our sample of systems dated September 30,
                                2004. We noted in another audit currently underway that the agency
                                combined numerous systems into one C&A. Those systems included
                                program specific and administrative systems under different management
                                control, different platforms, and different operating environments. OCIO
                                informed us that they rely on the agencies to accurately report their system
                                inventories and do not have adequate resources to verify the reported
                                information. OCIO should establish controls to ensure that its system
                                inventory remains up-to-date and can be reconciled with known system
                                implementations and disposals.

Recommendation No. 8

                                OCIO should establish procedures and controls to periodically evaluate the
                                accuracy of information provided by the agencies.

Agency Response                 OCIO has made monitoring, oversight, validation, and verification of agency
                                information a priority for the Departments security program. Beginning in
                                2006, OCIO will conduct a minimum of eight security reviews per year of
                                agency security programs, continue to track and resolve POA&M from
                                agency audits, and require agency certification packages to undergo



9
 The Department’s C&A effort consisted of two phases. Phase I was the preparation of the security plan, risk assessment, and other
documentation supporting the accreditation decision; and Phase II consisted mainly of the ST&E.
USDA/OIG-A/50501-4-FM                                                                                                  Page 21
                   ACIO-CS review for concurrence before being submitted to the agency
                   DAA.

OIG Position       While we agree with OCIO’s proposed corrective actions, to reach
                   management decision OCIO needs to provide us with an explanation of the
                   controls it intents to establish to ensure that monitoring, oversight, validation,
                   and verification, are conducted over every agency on a rotating basis; and its
                   timeframe for implementing its controls over this process.

Recommendation No. 9

                   OCIO should establish controls to ensure the Department’s inventory of
                   systems remains up-to-date and can account for system implementations and
                   disposals.

Agency Response    OCIO has established procedures to implement its Enterprise Architecture’s
                   Repository (EAR) to ensure that it has an accurate inventory of agency
                   systems by December 31, 2005. Agencies are required to provide an accurate
                   inventory by entering it into the EAR system. OCIO will ensure compliance
                   by doing monthly status and updates on agency inventories, crosschecking
                   the EAR with other processes that require systems inventories, and
                   conducting security reviews.

OIG Position       We concur with OCIO management decision.




USDA/OIG-A/50501-4-FM                                                                       Page 22
Scope and Methodology
                                 The scope of our review was nation-wide. We conducted this audit in
                                 accordance with “Government Auditing Standards.”

                                 Fieldwork for this audit was performed in Washington D.C., and Kansas
                                 City, Missouri. Fieldwork was performed from January through June 2005.

                                 To accomplish our audit objectives, we performed the following procedures:

                                      •    Judgmentally selected systems from OCIO’s system inventory based
                                           on risk rating, impact on the Department’s ability to prepare accurate
                                           and reliable financial statements, impact to the health or safety of the
                                           American public, and the individual contracting firms used by the
                                           agencies to complete the supporting C&A documentation. Our intent
                                           was to include critical systems and as many different contracting
                                           firms as possible.

                                      •    Reviewed security plans, risk assessments, security testing plans and
                                           results, and other documents prepared by the agencies or their
                                           contractors in support of the formal accreditation.

                                      •    Compared the content of the above documents to the requirements of
                                           departmental and other Federal guidance.

                                      •    Discussed and obtained clarification from knowledgeable agency and
                                           Department officials of the issues we identified during our review.

                                 We originally planned to conduct a complete review of the C&A
                                 documentation supporting accreditation for 12 of the 460 systems reported by
                                 the Department’s OCIO as of September 30, 2004. 10 This report is based on
                                 our review of only six selected systems. (See exhibit A.) Due to the
                                 pervasive and recurring issues we identified in all six systems, and
                                 Department officials’ concurrence with our issues, we decided to discontinue
                                 fieldwork and issue our report.




10
  Due in part to our request that OCIO update some missing information on its tracking spreadsheet, the number of systems identified by
the agencies and reported to OCIO increased to a total of 525 as of April 11, 2005.
USDA/OIG-A/50501-4-FM                                                                                                       Page 23
Exhibit A – List of Agencies and Systems Reviewed
                                                                                 Exhibit A – Page 1 of 2


     AGENCY                   SYSTEM                        SYSTEM DESCRIPTION
 Office of the Chief        Financial Data    Financial Data Warehouse – Mainframe is a
 Financial Officer           Warehouse –      comprehensive data warehouse reporting tool which
                              Mainframe       provides real-time access to key financial data for
                                              the U.S. Department of Agriculture. Financial Data
                                              Warehouse – Mainframe is an on-demand reporting
                                              application that is built upon the nightly financial
                                              extracts from the Foundation Financial Information
                                              System applications and the biweekly payroll detail
                                              for each agency.
Rural Development       Program Funds Control PFCS supports all budget, funds management, funds
                           System (PFCS)      control and funds reporting functions required by
                                              the four large loan and grant program legacy
                                              systems of Rural Development and the Farm
                                              Service Agency (FSA). Program Funds Control
                                              System provides financial data in electronic form
                                              for posting to the existing Financial General Ledger
                                              system.
Rural Development          Guaranteed Loan    Guaranteed Loan System is one of Rural
                               System         Development's official accounting and financial
                                              management systems and supports the Guaranteed
                                              and Direct Business & Industry program,
                                              Guaranteed and Direct Community Facility
                                              program, Guaranteed Rural Rental Housing
                                              program, Guaranteed Single Family Housing
                                              program, and the Guaranteed Water & Waste
                                              program in Rural Development and also supports
                                              the Guaranteed Farm Loan Program in the FSA
                                              Guaranteed Loan System is an online transaction
                                              entry and inquiry financial and accounting system
                                              accessed by over 1500 field offices, the national
                                              office, and finance office.
National Agricultural    Estimates Processing The EP is responsible for the processing of
 Statistics Service          System (EP)      agricultural statistics, statistical analysis, and the
      (NASS)                                  generation of reports based on these analyses. State
                                              Statistical Offices (SSO) transmits data and
                                              comments on speculative commodities to the
                                              secretary of the Agricultural Statistics Board
                                              through the NASS EP computer system. Under
                                              strict security conditions, analysts review the survey
                                              data and SSO recommendations to determine
USDA/OIG-A/50501-4-FM                                                                         Page 24
Exhibit A – List of Agencies and Systems Reviewed
                                                                              Exhibit A – Page 2 of 2


                                            national and State estimates. These estimates drive
                                            market prices for speculative commodities. The
                                            Board presents its reports in printed and electronic
                                            form to the waiting public and press,
Animal Plant Health Agricultural Quarantine Strategic Goal 3 of USDA’s Strategic Plan is to
  Inspection Service   Activity System      enhance protection and safety of the nation’s
                           (AQAS)           Agriculture and Food Safety. Objective 3.2 related
                                            to that goal is to reduce the number and severity of
                                            agricultural pest and disease outbreaks. The Plant
                                            Protection and Quarantine (PPQ) program is
                                            responsible for intercepting and identifying
                                            agricultural pests and diseases at ports of entry
                                            throughout the United States. A family of systems,
                                            collectively called the AQAS, was developed to
                                            support the PPQ mission.
Farm Service Agency   Guaranteed Sales      GSM is comprised of two subsystems, the Public
 /Commodity Credit     Manager System       Law (P.L.) 480 APLUS and the GSM Sales
     Corporation            (GSM)           Manager sub-systems. The GSM serves as the
                                            subsidiary system program and accounting system
                                            for the FSA’s foreign guarantee programs. The
                                            GSM Web/PC is an application base system that
                                            supports both FSA and Foreign Agricultural
                                            Services (FAS). The application’s mission is to
                                            provide financial reporting to the FSA-Financial
                                            Management Division via Guaranteed Sales
                                            Manager System Data Warehouse and to provide
                                            application operation support for the FAS. The
                                            mission of P.L. 480 APLUS is to financially process
                                            loans that will provide agriculture products and
                                            equipments to underdeveloped foreign countries to
                                            assist in economic development. Through the use of
                                            the P.L. 480 APLUS, data required to verify and
                                            validate the performance indicators for food
                                            assistance for underdeveloped countries is captured.
                                            APLUS is maintained by the FSA under the
                                            auspices of the Commodity Credit Corporation and
                                            is jointly used by FSA and the FAS to provide
                                            complete financial management and accounting for
                                            this program.




USDA/OIG-A/50501-4-FM                                                                      Page 25
Exhibit B – Agency Response
                              Exhibit B – Page 1 of 5




USDA/OIG-A/50501-4-FM                      Page 26
Exhibit B – Agency Response
                              Exhibit B – Page 2 of 5




USDA/OIG-A/50501-4-FM                      Page 27
Exhibit B – Agency Response
                              Exhibit B – Page 3 of 5




USDA/OIG-A/50501-4-FM                      Page 28
Exhibit B – Agency Response
                              Exhibit B – Page 4 of 5




USDA/OIG-A/50501-4-FM                      Page 29
Exhibit B – Agency Response
                              Exhibit B – Page 5 of 5




USDA/OIG-A/50501-4-FM                      Page 30
